NO:
IN THE
SUPREME COURT OF THE UNITED STATES

ERIC KAMAHELE,

v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Eric Kamahele, by and through his court-appointed counsel,
Benjamin C. McMurray, respectfully requests this Honorable Court for leave to
proceed in forma pauperis in filing the attached Petition for Writ of Certiorari. In
support of this request, Petitioner states that undersigned counsel was appointed
pursuant to the Criminal Justice Act of 1964, 18 U.S.C. ยง 3006A, by the United
States Court of Appeals for the Tenth Circuit, and he is unable to retain counsel
and pay for the costs attendant to the proceedings before the Honorable Court.

WHEREFORE, the Petitioner, Eric Kamahele, respectfully requests that he
be granted leave to proceed in forma pauperis.
Respectfully submitted,

/S/ Benjamin C. McMurray
Benjamin C. McMurray
Assistant Federal Public Defender
Counsel of Record for Petitioner
46 West 300 South, Suite 110
Salt Lake City, UT 84101
(801) 524-4010

